Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




           Psychotropic Drug Use
             in Nursing Homes

   Supplemental Information - 10 Case Studies




                       JANET REHNQUIST
                      Inspector General

                         november 2001
                         OEI-02-00-00491
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                        HEADQUARTERS

Demetra Arapakos, Project Leader              Bambi Straw, Program Specialist

Patricia Banta, Lead Analyst

Miriam Gareau, Program Analyst


.


    To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
           Reports are also available on the World Wide Web at our home page address:

                                    http://www.hhs.gov/oig/oei
                                             OVERVIEW

PURPOSE

         To provide supplemental information to our main report “Psychotropic Use in Nursing
         Homes” by describing 10 nursing homes’ use and monitoring of psychotropic drugs.

BACKGROUND
         This report supplements our main inspection on the use of psychotropic drugs in nursing
         homes, which found that these drugs are generally used appropriately. The Senate Special
         Committee on Aging requested that the Office of Inspector General look at the extent to
         which psychotropic drugs are being used as inappropriate chemical restraints in nursing
         homes. Usage rates for these drugs have been increasing since 1995. A chemical restraint
         is the use of a drug to control an individual’s behavior and is legally appropriate only if
         used to ensure the physical safety of residents or other individuals.

         Psychotropic medications are drugs that affect brain activities associated with mental
         processes and behavior. They are divided into four broad categories: anti-psychotic; anti-
         depressant; anti-anxiety; and hypnotic drugs. The Centers for Medicare & Medicaid
         Services established guidelines for the appropriate use of these drugs in nursing homes.

         We selected 10 different nursing homes for site visits based on their psychotropic drug
         usage rates, geographical variation, facility size, and ownership category. These facilities
         are in California, Florida, Idaho, Maryland, Massachusetts, Missouri, New York, Ohio,
         Texas, and Wisconsin. In each nursing home we conducted interviews with administrative
         and direct care staff, toured the nursing home, and spoke with residents. We present a 10
         case summary and individual nursing home case studies.


10 CASE SUMMARY

         In the main report, our medical record review determined that psychotropic drug use in
         nursing homes is generally appropriate. This supplemental information describes nursing
         homes’ self-reported approaches for managing residents taking these drugs. It is intended
         to assist the reader in better understanding the findings of the main report and to instruct
         individuals interested in this topic.




Psychotropic Drug Use in Nursing Homes - Case Studies   i                              OEI- 02-00-00491
Psychotropic Drug Treatment Protocols

         A drug treatment protocol consists of the general practices used to manage residents’ drug
         therapy, which are important given that our main report found at least one third of our
         sample nursing home residents entered the facility already on their medication.
         Respondents in all 10 nursing homes describe using similar practices for managing
         residents’ psychotropic drug therapies, including resident physical and/or psycho-social
         evaluations, behavior monitoring programs, tracking of side effects and adverse reactions,
         and dose reductions. All 10 nursing homes say they evaluate residents prior to starting
         drug therapy in order to rule out non-psychiatric causes of their behavior; most facilities
         also believe a philosophy of “start low and go slow” is the best practice. All 10 facilities
         also report beginning behavior monitoring at the time of admission for residents already
         taking psychotropic drugs. Finally, many nursing home respondents use the Drug
         Regimen Review conducted by their consultant pharmacist as an important element for
         monitoring psychotropic drug use, and many also use interdisciplinary review committees
         for this purpose.

Non-Pharmacologic Alternatives

         All 10 nursing homes we visited discuss using alternative non-pharmacologic interventions
         for psychiatric disorders and problem behaviors. The staff say that they most often try
         interesting the resident in something else (redirecting); providing intensive one to one
         direct care (one-to-one); letting the resident have time alone (time out); talking to the
         resident about what is bothering them (emotional support); removing the resident to a
         different area in the nursing home (relocating); and leaving the resident and returning at a
         later time (re-approaching). Nursing homes may also get the family involved in residents’
         day to day life at the nursing home and have the same staff person care for the same
         resident in order to establish an ongoing relationship between the two.

Appropriate Use of Chemical Restraints

         We asked all respondents about the appropriate use of chemical restraints in their nursing
         home. Overall, respondents express a general reluctance to use a psychotropic drug solely
         as a chemical restraint. However, eight explain that they may use a psychotropic drug
         when residents’ behavior is harmful to themselves or to others; the other two say they
         have not had a need to use a restraint. For example, respondents in one facility say they
         would use a restraint if a resident was striking other residents or staff. At another facility,
         respondents provide a specific example of using a restraint when a resident was
         continually throwing herself from her bed to the floor.




Psychotropic Drug Use in Nursing Homes - Case Studies   ii                               OEI- 02-00-00491
Staff Structure and Training

         All 10 nursing homes have access to psychiatric staff, such as a “psych team” or
         consultant psychiatrists and psychologists. Also, in a few homes with specialized units for
         residents with dementia or Alzheimer’s disease, the nurses and certified nurse aides work
         only in that unit and are often given specialized training to care for these residents.
         Additionally, many nursing homes offer some type of training to direct care staff, such as
         behavior management techniques. However, some aides say that there is not enough
         direct care staff to care for psychiatric residents.

AGENCY COMMENTS

         We received comments on the draft report from the Centers for Medicare & Medicaid
         Services. They believe that the report will contribute to a better understanding of
         psychotropic drug use in nursing homes and in identifying areas for further focus. The
         CMS also notes that training related to psychotropic drug use and related documentation
         issues is already underway or planned.




Psychotropic Drug Use in Nursing Homes - Case Studies   iii                           OEI- 02-00-00491
                    TABLE                      OF            CONTENTS


                                                                                                                          PAGE


OVERVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



10 CASE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5



INDIVIDUAL CASE STUDIES

         Beloit Health and Rehabilitation Center . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


         Blair House of Worcester . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


         Crown Center at Laurel Lakes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


         Gracewood Nursing Center, Inc. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


         Macon Health Care Center . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


         Manor Care Health Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


         Mission Nursing and Rehabilitation Center . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


         Mission Terrace Convalescent Hospital . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


         Mountain View Care and Rehabilitation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


         Park Nursing Home . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


APPENDIX


         A: Agency Comments               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29




Psychotropic Drug Use in Nursing Homes - Case Studies          iv                                               OEI- 02-00-00491
                                    INTRODUCTION

PURPOSE

          To provide supplemental information to our main report “Psychotropic Drug Use in
          Nursing Homes” by describing 10 nursing homes’ use and monitoring of psychotropic
          drugs.


BACKGROUND

          This report supplementals our main inspection on the use of psychotropic drugs in nursing
          homes, which found that these drugs are generally used appropriately. The Senate Special
          Committee on Aging requested that the Office of Inspector General look at the extent to
          which psychotropic drugs are being used as inappropriate chemical restraints in nursing
          homes. Usage rates for these drugs have been increasing since 1995. A chemical restraint
          is the use of a drug to control an individual’s behavior and is legally appropriate only if
          used to ensure the physical safety of residents or other individuals.

Psychotropic Medications

          Psycho-pharmacologic medications are drugs that affect brain activities associated with
          mental processes and behavior. These drugs are also called “psychoactive” or
          “psychotherapeutic” medications. For clarity, we will refer to this class of drugs
          throughout our study as “psychotropics.” Psychotropic medications are divided into four
          broad categories: anti-psychotic; anti-depressant; anti-anxiety; and hypnotic medications.

Omnibus Budget Reconciliation Acts of 1987 and 1990

          In December 22, 1987, Congress enacted comprehensive nursing home reform with the
          Omnibus Budget Reconciliation Act (OBRA) of 1987 (P.L. 100-203). As part of OBRA
          1987, Congress passed the comprehensive Nursing Home Reform Act (NHRA). This Act
          mandates that residents be free from “physical or chemical restraints imposed for the
          purposes of discipline or convenience.” It also states that restraints may only be imposed
          to ensure the physical safety of the resident or other residents and only upon the written
          order of a physician that specifies the duration and circumstances under which the
          restraints are to be used. Further, the nursing Home Reform Act limits the use of “as
          needed” (PRN) orders and requires efforts to withdraw the drug or decrease dosage be
          made for residents who are receiving psychotropic drugs.




Psychotropic Drug Use in Nursing Homes - Case Studies   1                              OEI- 02-00-00491
          Additionally, the Omnibus Budget Reconciliation Act (OBRA) of 1990 requires the
          regulation of certain drugs in nursing homes and the establishment of Drug Regimen
          Reviews for nursing home residents. The provisions of Section 4401 of OBRA 1990
          involve pharmacists more actively in resident care by refocusing pharmacists from a
          product oriented role to one involving clinical practice responsibilities for reducing
          potential drug therapy problems.

The Centers for Medicare & Medicaid Services Regulations

          To implement the requirements of OBRA 1987, on February 2, 1989, the Centers for
          Medicare & Medicaid Services (CMS), formerly known as the Health Care Financing
          Administration, finalized regulations (42 C.F.R §483.25(1)) on anti-psychotic medications
          and unnecessary drugs. These regulations were further refined in 1991. The CMS
          regulations state that each resident’s drug regimen must be free from unnecessary drugs
          and define what is considered an unnecessary drug. An unnecessary drug is any drug
          used:

                    C         in excessive dose;
                    C         for excessive duration;
                    C         without adequate monitoring or without adequate indications for its use; or
                    C	        in the presence of adverse consequences, which indicate the dosage should
                              be reduced or discontinued.

          In addition, the CMS regulations state that residents who have not previously used anti-
          psychotic drugs should not be given these drugs unless anti-psychotic drug therapy is
          necessary to treat a specific condition as diagnosed and documented in the clinical record.
          Further, the regulation mandates that residents who use anti-psychotic drugs receive
          gradual dose reductions and behavioral interventions, unless clinically contraindicated, in
          an effort to discontinue these drugs.

          In July 1995, the CMS completed the final step in the implementation of OBRA 1987 by
          introducing new tasks into the nursing home survey process. Further refinements to
          survey procedures and interpretive guidelines were implemented on July 1, 1999. Some of
          these are specific to psychotropic drug therapy, including: new investigative protocols and
          the incorporation of quality indicators (QIs) based on the Minimum Data Set (MDS) into
          the off-site survey process; an update to the list of anti-psychotic drugs that can be cited
          as unnecessary or misused under tag number F329; the addition of drug therapy
          guidelines; and a revised definition of “medication error.”

Methodology

          We selected a purposive sub-sample of 10 nursing homes in different States to visit on-
          site. These 10 nursing homes were selected based on five criteria:


Psychotropic Drug Use in Nursing Homes - Case Studies   2                                  OEI- 02-00-00491
                    C         geographical location

                    C         number of residents in November 2000

                    C         psychotropic drug usage rate in November 2000

                    C         urban/rural location, and 

                    C         ownership status


          We chose nursing homes in California, Florida, Idaho, Maryland, Massachusetts, Missouri,
          New York, Ohio, Texas, and Wisconsin. Five of the facilities were large (more than 100
          residents), four were medium (61-99 residents), and one was small (less than 60
          residents). Also, four of the homes had a high psychotropic drug usage rate (greater than
          34 percent), four had a moderate rate (18 to 34 percent), and two had rates of less than 18
          percent. Lastly, based on census data, eight of the nursing homes were located in an
          urban area while two were rural. Nine were for-profit while one was non-profit.

          While on-site at these 10 facilities, we interviewed both administrative as well as direct
          care staff. Our administrative interviews included discussions with nursing home
          administrators, directors of nursing, medical directors, consultant pharmacists,
          psychiatrists, social workers, and psychologists. We spoke with these respondents about
          how psychotropic drugs are being used and monitored in their facility. We also
          interviewed nurses and certified nurse aides in each facility separately from administrative
          staff about how they care for and monitor residents on psychotropic drugs and how they
          handle aggressive residents. Lastly, while on-site we spoke with and observed the
          residents in our sample and toured the facility, including observing at least one structured
          activity or meal.

          In addition to reporting each nursing home’s case study individually, we conducted a cross
          case analysis of the inspectios team’s observations and interviews with nursing home staff.
          We used a summary matrix to identify four approaches the nursing homes use to manage
          residents taking psychotropic drugs. These are: psychotropic drug treatment protocols;
          non-pharmacologic alternatives; appropriate use of chemical restraints; and staff structure
          and training. The results of this cross case analysis are reported in the cross case
          summary.

Limitations

          This methodology has several limitations. First, the approaches we describe are based on
          self-reported information that we did not independently validate. This information is based
          primarily on a description of policies and not necessarily of direct practices. Our intention
          is not to endorse these policies but rather to describe a cross section of nursing home
          approaches to managing residents taking psychotropic drugs. Finally, we did not examine
          overall quality of care in any of the 10 nursing homes.




Psychotropic Drug Use in Nursing Homes - Case Studies   3                                OEI- 02-00-00491
          This inspection was conducted in accordance with the Quality Standards for
          Inspections issued by the President’s Council on Integrity and Efficiency.




Psychotropic Drug Use in Nursing Homes - Case Studies   4                         OEI- 02-00-00491
Vin the main report, our medical record review determined that psychotropic drug use in nursing
                              10 CASE SUMMARY

          In the main report, our medical record review determined that psychotropic drug use in
          nursing homes is generally appropriate. This supplemental information describes nursing
          homes’ self-reported approaches for managing residents taking these drugs. It is intended
          to assist the reader in better understanding the findings of the main report and to instruct
          individuals interested in this topic.

          Based on the analysis of our interviews and the inspection team’s observations, we
          identified four similarities in the 10 nursing homes’ approaches. These are:

                    1.   Psychotropic drug treatment protocols
                    2.   Non-pharmacologic alternatives
                    3.   Appropriate use of chemical restraints
                    4.   Staff structure and training

Psychotropic Drug Treatment Protocols

          A drug treatment protocol consists of the general practices used to manage residents’ drug
          therapy. Such protocols are important given the growing prevalence of psychotropic drug
          use among nursing home residents. In fact, our main report, “Psychotropic Drug Use in
          Nursing Homes,” found that at least one third of the nursing home residents in our sample
          entered the facility already on their psychotropic medication. Also, most of our case study
          respondents say that many residents are already taking a psychotropic drug at their time of
          admission.

          Respondents in all 10 nursing homes describe using similar practices for managing their
          residents’ psychotropic drug therapy. These include resident physical and/or psycho-
          social evaluations, behavior monitoring programs, tracking of side effects and adverse
          reactions, and dose reductions. In fact, the results of our medical record review from the
          main report show that nearly all the psychotropic drugs being used by residents in our
          sample are being used without adverse consequences and with adequate monitoring.

          Respondents in all 10 nursing homes say they evaluate residents prior to starting
          psychotropic drug therapy in the nursing home in order to rule out non-psychiatric causes
          of their behavior. This is supported by the results of our medical record review, that
          found that in most cases, residents’ behavioral symptoms are not being caused solely by
          environmental stress or medical conditions. Most respondents mention that they give
          residents a physical work-up when a change in their behavior occurs; respondents say
          identifying what might be precipitating the problem behavior and removing it is important.
          Several respondents also mention assessing residents’ spiritual, social, and


Psychotropic Drug Use in Nursing Homes - Case Studies   5                               OEI- 02-00-00491
          pain status. When other causes are ruled out and drug therapy is initiated, most facilities
          believe a philosophy of “start low and go slow” is the best practice. This means that the
          drug therapy is initiated at the lowest possible dose with incremental increases when
          necessary.

          All 10 facilities say they begin behavior monitoring at the time of admission for residents
          already taking psychotropic drugs. In three of the 10 homes, respondents say they begin
          behavior monitoring for all new admissions. Respondents say that behavior monitoring
          allows a more accurate understanding of how residents are responding to their
          psychotropic drug therapy and whether they are appropriate candidates for dose
          reduction. Some nursing homes document behavior monitoring in the medication
          administration record (MAR) and others have developed specialized behavior monitoring
          sheets.

          Most of the nursing homes use the Drug Regimen Review (DRR), conducted by their
          consultant pharmacist, as an important element for monitoring psychotropic drug use.
          They say that the monthly DRR is helpful for identifying problems or potential problems.
          Some facilities report using the DRR as a tracking tool when monitoring for dose
          reduction, side effects, dosage appropriateness, and adequate documentation in the
          resident’s medical record.

          The importance attributed to DRRs by our case study respondents is supported by our
          review of all nursing homes’ DRRs in our main report, “Psychotropic Drug Use in
          Nursing Homes.” The DRRs we reviewed for that study include the pharmacist’s
          recommendation to change a medication in order to improve the management of a
          resident’s behavioral symptoms, as well as a recommendation to re-evaluate or discontinue
          PRN (“when necessary”) drug orders. The DRRs also commonly include a suggestion to
          decrease dosage, a reminder that reduction attempts are past due, or an identification of
          medication errors, such as when inappropriate duplicate drugs are being given.

          Nursing home respondents also report other methods for managing their residents’
          psychotropic drug therapy. These include daily or weekly monitoring in nurses’ notes,
          periodic psychiatrist assessments, and corporate reviews of psychotropic drug therapies.

          Finally, seven nursing homes report using interdisciplinary review committees to monitor
          the use of psychotropic drugs, including monitoring for side effects and adverse reactions.
          A few of these committees are part of periodic quality assurance team meetings.
          Attendees at these committees can include: the medical director, administrator, director of
          nursing, department heads, consultant pharmacist, MDS RN coordinator, social worker,
          psychiatrist, psychologist, and other direct care staff. The administrator of a nursing home
          with many mentally ill residents believes a multi-disciplinary approach results in quality of
          care for all residents, saying “we focus on a coordination of services.”



Psychotropic Drug Use in Nursing Homes - Case Studies   6                               OEI- 02-00-00491
Non-Pharmacologic Alternatives

          All 10 nursing homes we visited are using alternative non-pharmacologic interventions for
          residents with psychiatric disorders and problem behaviors. The staff at all 10 report using
          similar behavior management techniques to care for residents who are acting out, are
          confused or agitated, or who exhibit other behavioral symptoms. These include
          interesting the resident in something else (redirecting); providing intensive one-to-one
          direct care (one-to-one); letting the resident have time alone (time out); talking to the
          resident about what is bothering them (emotional support); removing the resident to a
          different area in the nursing home (relocating); and leaving the resident and returning at a
          later time (re-approaching). In fact, during several of our visits, we observed some of
          these techniques, such as individual staff members spending time with residents who
          seemed disturbed or agitated and staff redirecting residents to other activities or locations.

          Nursing home respondents also try other non-pharmacologic approaches. They may try to
          get the family involved in the resident’s day-to-day life at the nursing home. In addition,
          staff also note the importance of having the same staff person care for the same resident in
          order to establish an ongoing relationship between the two. However, they will also
          consider changing staff if a resident does not get along with that individual. A few
          respondents also say that for residents whose problem behavior occurs suddenly, it could
          be the timing of an activity or physical care that is causing the problem; a change in timing
          can therefore be helpful. Several respondents also told us that environmental
          modification, such as keeping the nursing home free of confusing objects, contributes to
          residents’ emotional wellbeing. Finally, some nursing homes try innovative approaches
          such as pet therapy, recreational activities, or massage therapy.

Appropriate Use of Chemical Restraints

          We asked all respondents about the appropriate use of chemical restraints in their nursing
          home. Overall, respondents express a general reluctance to use a psychotropic drug solely
          as a chemical restraint. However, eight explain that they may use a psychotropic drug
          when residents’ behavior is harmful to themselves or to others; the other two say they
          have not had a need to use a restraint. For example, respondents in one facility say they
          would use a restraint if a resident was striking other residents or staff. At another facility,
          respondents provide a specific example of using a restraint when a resident was
          continually throwing herself from her bed to the floor. Medical directors and
          administrators at a few nursing homes describe using Risperdal and Zyprexa, two anti-
          psychotic medications, as chemical restraints in residents who are extremely combative
          with care or hallucinating. Respondents at other nursing homes say Ativan, an anti-anxiety
          drug, will be given for escalating behaviors.




Psychotropic Drug Use in Nursing Homes - Case Studies   7                                 OEI- 02-00-00491
Staff Structure and Training

          All 10 nursing homes have access to psychiatric staff, typically on a consultant basis. For
          example, in one nursing home with a high proportion of mentally ill residents, they
          contract with a company to provide a “psych team,” whose members could include
          psychiatrists, psychologists, geriatric nurse practitioners, and other geriatric specialists.
          This team evaluates and manages residents. Other nursing homes may use individual
          psychiatrists and/or psychologists on a consultant basis. These consultants may assess
          residents taking psychotropic drugs and/or who are enrolled in behavior management
          programs. Lastly, in all of the nursing homes, residents may also have their own private
          physicians who manage their psychotropic drugs.

          Nursing homes may structure their direct care staffing assignments for residents taking
          psychotropic drugs in different ways. In a few homes with specialized units for residents
          with dementia or Alzheimer’s disease, the nurses and certified nurse aides (CNAs) work
          only in that unit and are often given specialized training to care for these residents.
          Additionally, many nursing homes offer some type of training to direct care staff, such as
          behavior management techniques. Further, a few homes provide in-service education to
          nursing staff on psychotropic drug therapy.

          We also asked CNAs about caring for residents taking psychotropic drugs. A majority of
          CNAs say that when a resident in their care requires full assistance, care duties for other
          residents in their care will be shifted to another CNA. Some also say that there is not
          enough direct care staff to care for psychiatric residents. Despite these concerns,
          however, when CNAs were asked what they like most about their jobs, they
          overwhelmingly responded “the residents.”




Psychotropic Drug Use in Nursing Homes - Case Studies   8                                OEI- 02-00-00491
               INDIVIDUAL CASE STUDIES

                   BELOIT HEALTH AND REHABILITATION CENTER


              C         Located in Beloit, Wisconsin, a small town in southern Wisconsin

              C         For-profit nursing home

              C         148 beds (60 Medicare certified, 148 Medicaid certified)


Facility Profile

          Beloit Health and Rehabilitation Center caters to long term residents, most of whom have
          dementia and other mental disorders. These residents also tend to be clinically complex,
          with multiple medical problems requiring intensive daily assistance. Beloit Health and
          Rehabilitation Center also has a separate Alzheimer’s Unit, one of the few nursing homes
          in the area to have such a unit. Despite their high proportion of residents with mental
          disorders, their psychotropic drug use has been decreasing over the past several years.
          Currently, they have a moderate rate of 22 percent.

Approach to Psychotropic Drug Therapy

          The Beloit Health and Rehabilitation Center follows a “start low, go slow” protocol for
          their residents’ use of psychotropic drugs, meaning they will initiate drug therapy on a low
          dose and make gradual modifications. They will first rule out metabolic causes for
          problematic behaviors before using a drug. A daily clinical review is conducted for all
          residents on psychotropic drugs and any changes in medication are reviewed by both the
          director of nursing and the case manager before being implemented. The facility generally
          follows dosage guidelines established by its corporate office; these are more stringent than
          Federal guidelines.

          This nursing home also utilizes a strong interdisciplinary approach in monitoring
          psychotropic drugs. One staff member, stressing the importance of a team approach,
          states, “If [the] pharmacist is the only person tracking drugs, [the drugs] can’t be
          effective.” A behavior management program for each resident is established by the case
          manager and team meetings are held at regular intervals to review each resident’s progress
          and drug use. These meetings are typically attended by the consultant pharmacist, the
          director of nursing, case manager, and psychologist, as well as other staff members.
          Further, residents are also referred to a geriatric psychiatrist at a nearby hospital for
          evaluation and monitoring.




Psychotropic Drug Use in Nursing Homes - Case Studies   9                               OEI- 02-00-00491
Alternative Interventions

          Since staff at Beloit Health and Rehabilitation Center express a strong belief that
          psychotropic drugs should only be used if every other intervention has failed, they use
          various non-pharmacologic interventions for handling problematic behaviors. They will
          try intensive “one-on-ones”, in which a staff member is assigned to an individual resident
          for 24 hours a day, until a resident’s problem behavior is modified or controlled. Staff at
          the nursing home say they are willing to accept some combative behavior in residents as
          long as the behavior is not dangerous for the resident or others in the facility. In fact,
          during our visit, we observed staff interacting with and comforting residents who were out
          in the hallways and/or appeared distressed by speaking to them in soft, quiet tones and
          trying to re-direct them to their room or some other activity. Other non-pharmacologic
          interventions used in the nursing home include small group activities, removal or re-
          direction of a resident who is displaying problem behaviors, and the assignment of new
          staff to care for a resident. Lastly, a psychologist is actively involved in the nursing
          home’s activities by providing training to staff, consulting on aggressive behavior,
          conducting psychological evaluations, and providing therapy for some residents with mild
          Alzheimer’s disease or dementia.




Psychotropic Drug Use in Nursing Homes - Case Studies   10                             OEI- 02-00-00491
                                   BLAIR HOUSE OF WORCESTER


          C         Located in Worcester, Massachusetts, a small industrial city near Boston

          C         For-profit nursing home

          C         75 beds (75 Medicare certified, 75 Medicaid certified)


Facility Profile

          Blair House of Worcester cares exclusively for residents with dementia. The residents are
          in various stages of dementia and about 30 to 50 percent have a history of mental illness.
          Since this home is the only one of its kind in the area, it serves residents from both rural
          and urban Massachusetts and Connecticut. Further, Blair House accepts residents who
          have failed in other nursing homes.

          This nursing home has a higher psychotropic drug usage rate (66 percent) than the others
          in our sample. One of the home’s medical staff explains this rate by saying that, “dementia
          is a disease that causes people to act just on raw impulse. The anti-psychotic drugs slow
          them down and help them to deal with their impulses.”

Approach to Psychotropic Drug Therapy

          Blair House has established a process which staff follow before prescribing a psychotropic
          drug. For the first 48 hours that residents are in the facility, the staff record their
          behaviors on a standardized behavior monitoring sheet. Then the social worker develops a
          specialized behavior management plan and monitoring sheet. If it is needed, they ask the
          psychiatric team, consisting of the psychologist, psychiatric nurse practitioner, and
          psychiatrist, for a consultation which may result in revision of the behavior management
          plan. If after several weeks the resident’s behavior has not improved, the psychiatric nurse
          practitioner may prescribe a low dosage of a psychotropic medication.

          When initiating psychotropic drugs as a new therapy or when a change in condition
          occurs, staff at Blair House try to start with a low dosage and gradually increase until the
          resident improves. Staff make it a point to allow time for a new resident to adjust to the
          facility before prescribing medication. A similar process is followed when a resident
          develops a behavior in the facility. Staff also rule out physical problems, such as urinary
          tract infections, before using drugs.

          Blair House uses several methods to monitor and minimize psychotropic drug usage.
          Nurses monitor behavior episodes and the side effects of the psychotropic drugs on




Psychotropic Drug Use in Nursing Homes - Case Studies   11                               OEI- 02-00-00491
          monitoring sheets. The consultant pharmacist will recommend reductions when the
          resident has exhibited none of the targeted behaviors for three to four months. Otherwise,
          staff attempt a reduction at least every six months. In addition, when possible they try to
          prescribe the lowest possible dose of anti-psychotics by combining it with another
          medication, such as an anti-depressant.

Alternative Interventions

          The facility’s staff use behavior management techniques instead of or in combination with
          psychotropic drugs. Specifically, the staff use the techniques of redirection and
          reassurance. For example, a staff member may bring a distraught resident to a quiet place
          for milk and cookies or call a family member to speak to the resident. In addition, staff
          will redirect disruptive behavior. They also do not attempt to reorient delusional
          residents. For example, we observed one resident calling out the name of her sister, who
          had passed away years ago. The resident wanted her sister’s assistance. Part of the
          behavior management plan for this resident was for staff to tell her that her sister “would
          be here soon.” Further, Blair House trains all staff about handling the behaviors of
          residents with dementia. The administrator believes this training, along with the
          specialized experience of the nurses and certified nurse assistants, is advantageous to the
          residents. During our site visit, we observed that most of the residents in this facility were
          active; many were walking throughout the hallways and interacting with staff. Other
          residents were participating in a group activity.




Psychotropic Drug Use in Nursing Homes - Case Studies   12                               OEI- 02-00-00491
                               CROWN CENTER AT LAUREL LAKE


                      C         Located in Hudson, Ohio, a suburb of Cleveland

                      C         Non-profit nursing home

                      C         75 beds (75 Medicare certified, 0 Medicaid certified)


Facility Profile

          Crown Center at Laurel Lakes is part of a larger campus that offers assisted and
          independent living to its residents. The nursing home shares services, such as recreational
          activities and physical therapy, with the assisted living unit. About 75 percent of the
          nursing home residents come from the assisted or independent living units. The nursing
          home has a mix of both short-term and long-term residents with a variety of needs. In
          addition, residents from the independent living and assisted living volunteer in the nursing
          home by visiting and sometimes sitting with an upset resident. According to the staff, the
          nursing home residents in this facility are of a higher socio-economic class, education
          level, and have higher family involvement than average.

          Crown Center has a drug usage rate of 25 percent, which is moderate in comparison to the
          other homes in our sample. The medical director attributes this rate to standing “as
          needed” orders for sleeping medications that are rarely used. He explains that many of the
          residents in the home are privately funded and pay for their own sleeping medication;
          therefore, the nursing home is hesitant to cancel the order, even when the drugs are not
          used regularly.

Approach to Psychotropic Drug Therapy

          Crown Center’s policy is “to encourage safe and effective” drug therapy. They use
          psychotropic drugs for both short-term and long-term treatment. According to staff,
          these drugs are used in the short-term to treat psychological problems due to: illness (such
          as a stroke), the death of spouse or roommate, or depression when first coming to the
          nursing home. Staff also report that for long-term therapies, psychotropic drugs such as
          anti-anxieties are sometimes used in conjunction with anti-depressants to treat depression.
          Also common in this facility are “as needed” orders for residents who need occasional
          sleep aids. According to staff, “if a resident comes to the facility already using a
          psychotropic drug and the diagnosis is appropriate, we continue [the drug].” If a new
          problems arises, the nursing staff chart the resident’s behavior for three days and consult
          the resident’s personal physician. The psychologist from the psychological services team
          reports also providing consultation to the staff and making recommendations for
          medications.




Psychotropic Drug Use in Nursing Homes - Case Studies   13                               OEI- 02-00-00491
          Residents on psychotropic drugs are monitored in several ways. Nurses monitor the day-
          to-day effectiveness of the drugs with a standardized “behavioral monthly flow chart”.
          On this chart, nurses record during each shift the frequency of behavior episodes and side
          effects. They also record the type of behavior and the intervention as well as the type of
          side effect and the action taken. The MDS RN coordinator performs a test for side-effects
          on all residents taking anti-psychotic medications. In addition, the consultant pharmacist
          reports recommending appropriate dose reductions.

Alternative Interventions

          Staff at Crown Center at Laurel Lake also use various behavior management techniques.
          The administrator reports that “psychotropics are not the first route to go.” When a
          resident is acting out aggressively, staff report trying to calm the resident by diverting or
          redirecting them. They may call the family to come in or ask a volunteer to sit with the
          resident. They may give them food, a book of pictures they like, or massage therapy. One
          nurse remarked that “if you are with a patient every day you can figure out what they
          want. Staff here take steps to modify behavior.” Lastly, the nursing home also contracts
          with a psychological consulting company for psychotherapy and behavior management
          advice.




Psychotropic Drug Use in Nursing Homes - Case Studies   14                              OEI- 02-00-00491
                            GRACEWOOD NURSING CENTER, INC.


            C         Located in Pinellas Park, Florida, a suburban retirement community

            C         For-profit nursing home

            C         120 beds (120 Medicare certified, 120 Medicaid certified)


Facility Profile

          At the time of our visit to Gracewood Nursing Center, Inc. a transfer of ownership was in
          progress. This nursing home has plans to add a specialized orthopedic rehabilitation unit
          but presently most of the residents are long-term care and 65 and older. Many are bed
          bound, others are wheelchair bound, and few are ambulatory. A few younger residents
          with chronic disabling conditions also live at the home. Previous to the change in
          ownership, the facility had received many deficiency citations in the last three surveys,
          including a ’G’ level in the most current survey. An interim administrator has been hired
          by the corporation during the transition to improve conditions. Gracewood Nursing
          Center has a moderate psychotropic drug usage rate of 18 percent.

Approach to Psychotropic Drug Therapy

          Gracewood Nursing Center, Inc., has instituted new guidelines and protocols for all
          residents who come into the facility already taking one or more psychotropic medications
          and for residents who begin such therapy after admission. First, they will rule out a
          medical cause for problematic behaviors and evaluate residents for other unmet needs such
          as dietary dislikes and personality clash with care-givers or roommates. Then, a behavior
          monitoring program is initiated. For those residents taking anti-psychotics, a bi-annual
          Abnormal Involuntary Movement Scale (AIMS) test is given.

          The nursing home’s new guidelines include interdisciplinary strategies to maintain
          residents at an optimum behavioral level and to monitor the use of psychotropic drugs.
          Bi-monthly behavior management meetings are conducted during which eight residents are
          selected for a full medical record review. A monthly “pro psychoactive drug review” is
          conducted by RN staff who partner with the consultant pharmacist and gerontologist in an
          effort to reduce dosage when appropriate and/or taper dosage with a goal to discontinue
          the drug. As one RN respondent says, “We rely heavily on the drug regimen review to
          identify any problems.” The consultant pharmacist also meets with the director of nursing
          bi-monthly to review charts.

Alternative Interventions

          The staff at Gracewood Nursing Center, Inc. have a strong belief that alternative non­
          pharmacologic interventions are dependent on their knowledge and understanding of the


Psychotropic Drug Use in Nursing Homes - Case Studies   15                              OEI- 02-00-00491
          resident. They describe several approaches to manage a resident’s behavioral symptoms as
          supportive of the resident, especially when an acute and sudden onset of a behavior
          occurs. If the resident is aggressively acting out they generally will use one-to-one
          monitoring. The director of nursing emphasizes that “staff are instructed to talk to the
          resident in an effort to determine what might be upsetting to them [and] thereby triggering
          the behavior.” One CNA says “if the behavior occurs in the first week of admission, we
          usually don’t consider this a real change in condition but will continue to monitor [the
          behavior].” Other alternative interventions used in the nursing home include small group
          day trips outside the facility, touch therapy, and counseling by a member of the clergy.

          We noted little activity at this nursing home except for a smoking area in an open center
          courtyard, where a few of the younger ambulatory residents gather to smoke. During the
          five hours we were at the nursing home we did not see any planned activities for residents
          in the multi-purpose common room. One resident, a woman in her early forties who has
          been living in the home for twelve years and was one of the three residents randomly
          selected for a medical record review, complained about the care she receives, claiming that
          the staff is slow to respond to residents’ needs and requests.




Psychotropic Drug Use in Nursing Homes - Case Studies   16                             OEI- 02-00-00491
                                  MACON HEALTH CARE CENTER


     C         Located in Macon, Missouri, a rural farming community in northeastern Missouri

     C         For-profit nursing home

     C         120 beds (52 Medicare certified, 50 Medicaid certified)


Facility Profile

          Macon Health Care Center is located near the town’s community hospital, which accounts
          for its emphasis on long term specialized care. Many residents require a high level of
          skilled care, such as tube feedings, tracheotomy care, and intravenous drug therapy. Other
          specialities include stroke rehabilitation as well as mental illness and advanced dementia.
          Accordingly this nursing home has a high psychotropic drug usage rate of 46 percent.
          Additionally, many of the residents have a diagnosis of psychosis, schizophrenia, or
          retardation. Within their parent corporate organization, Macon Health Center is one of
          nine facilities in Missouri that cares for residents with mental illnesses. These residents are
          meshed into the general nursing home population.

Approach to Psychotropic Drug Therapy

          Respondents at Macon Health Care Center describe residents taking long term
          psychotropic drugs as having been admitted into the nursing home from a psychiatric
          institution with a prior history of such drug therapy. However, the administrator says the
          admission protocol for all residents “requires a full physical assessment by the MDS RN
          coordinator,” and, “ if admitted on a psychotropic drug, an assessment of appropriateness
          for reduction is also done.” If a behavior develops after admission several steps are taken
          before initiating drug therapy. If the behavior is aggressive, one-to-one care is started.
          Staff evaluate the resident for pain and a full medical work-up follows. When these steps
          do not indicate the reason for the behavior, the resident is given a psychological
          evaluation.

          At Macon Health Care Center, monitoring of residents’ drug therapies includes quarterly
          and annual assessments by the MDS RN coordinator. The medical director or nurse
          practitioner reviews these assessments. Also, the nursing home has weekly
          interdisciplinary behavior team meetings and monthly quality assurance meetings that most
          attending physicians and all department heads attend. Additionally, the director of nursing
          has developed a tracking system using the consultant pharmacist’s DRR to follow trends
          and dosage for residents on all categories of psychotropic drugs. The regional consulting
          nurse also conducts a “corporate” review of residents on psychotropic drug therapy.




Psychotropic Drug Use in Nursing Homes - Case Studies   17                                OEI- 02-00-00491
Alternative Interventions

          All direct care staff interviewed describe staff education as an important piece in the
          successful behavioral management of residents with mental illness. Additional special
          sessions for staff working in the Special Needs Unit address the challenge of working with
          this resident population, as does an “alternative program” that sends direct care staff to the
          facility’s regional office for training. Nursing home staff say this training keeps their
          behavior management skills up to date.

          Approaches to moderate resident behaviors include innovative and creative strategies. For
          example, the facility has instituted pet therapy - birds, rabbits, cats and a dog, “are
          wonderful diversions for the residents,” says one RN. In fact, during our visit, we
          observed residents happily greeting a dog that was scampering through the hallways. The
          administrator credits the social worker and nursing staff as a limitless source of creative
          thinking.




Psychotropic Drug Use in Nursing Homes - Case Studies   18                               OEI- 02-00-00491
                                 MANOR CARE HEALTH SERVICES


            C         Located in Silver Springs, Maryland, a suburb of Washington D.C.

            C         For-profit nursing home

            C         130 beds (28 Medicare certified, 130 Medicaid certified)


Facility Profile

          The majority of residents at Manor Care Health Services are long term care residents,
          many of whom have dementia and other chronic illnesses. The nursing home also has a
          separate Alzheimer’s Unit. This facility has a psychotropic drug usage rate of 38 percent.
          Many residents at Manor Care come from an assisted living center that is adjacent to the
          nursing home, particularly as their Alzheimer’s disease or dementia becomes more severe.

Approach to Psychotropic Drug Therapy

          Manor Care Health Services will generally start residents on low psychotropic drug
          dosages when beginning a new drug therapy. They also generally obtain pharmacist and
          psychiatrist input when initiating or making a change in psychotropic drug medication.
          They will try to monitor new residents for at least one week before prescribing a
          psychotropic drug, although the staff may use a psychotropic drug on a short term basis
          to control a resident’s agitation and yelling, especially if the resident is a new admission.
          Each resident in the facility also has a behavior tracking chart that is periodically updated,
          and a psychologist and psychiatrist are also available for ongoing consultation.

          Manor Care Services has a psychotropic drug committee that meets monthly to monitor
          how the drugs are used. This committee is comprised of the director of nursing, unit
          manager, consultant pharmacist, and social worker. During their meetings, the members
          discuss the residents’ behavior, response to the drugs, and possible side effects. The social
          worker at the facility stresses the importance of such monitoring since there are “more
          patients with psychiatric problems in nursing homes today than ever before.” In fact, we
          observed several residents in the hallways and common rooms that appeared confused
          and/or were yelling and moaning. Staff comforted these residents by speaking to them in
          quiet tones or holding their hands; in some cases, they redirected the resident to another
          location.

          The staff express a belief that decisions on when and how to use drugs are unique to each
          individual and his or her needs. The director of nursing states, “[We] treat patients on an
          individual basis.”




Psychotropic Drug Use in Nursing Homes - Case Studies   19                                OEI- 02-00-00491
Alternative Interventions

          Staff at Manor Care Services attempt various non-pharmacologic approaches to handle
          behavioral issues. These include: redirecting residents to new activities or locations;
          changing roommates if that is an issue; changing the timing of direct care activities (such
          as bathing); talking to residents about their care; and assigning the same staff person to
          care for the same resident. One of the CNAs we spoke with says that when residents act
          out aggressively, she may leave them for a short period of time or ask them what is
          bothering them. Her approach was typical of the care we observed while touring the
          facility.




Psychotropic Drug Use in Nursing Homes - Case Studies   20                              OEI- 02-00-00491
                 MISSION NURSING AND REHABILITATION CENTER



       C         Located in Mission, Texas, a large suburban town in the Rio Grande Valley

       C         For-profit nursing home

       C         120 beds (30 Medicare certified, 67 Medicaid certified)


Facility Profile

           Mission Nursing and Rehabilitation Center admits mostly long term residents and recently
           discharged hospital patients requiring highly skilled care. Additional specialties include
           dementia care, orthopedic rehabilitation, and a 20 bed Alzheimer’s Unit (the second such
           unit in the area for which there is usually a waiting list for beds.) Because of a forced
           closure of a nearby psychiatric nursing facility and this nursing home’s reputation for
           specialized psychiatric care, many recent referrals have a history of mental illness. Despite
           a high proportion of residents with mental disorders, this nursing home has a low
           psychotropic drug rate of 16 percent. Many of the residents are Spanish speaking, as are
           the staff who care for them.

Approach to Psychotropic Drug Therapy

           Respondents at Mission Nursing and Rehabilitation Center believe their low psychotropic
           usage rate is reflective of a policy to avoid the use of such drugs if possible. The
           pharmacological approach for all residents admitted into the facility already taking a
           psychotropic drug includes initiation of behavior monitoring and a consultant pharmacist
           check for appropriate psychiatric diagnosis and dosage suitability. Behavior monitoring is
           also initiated for all new admission to help direct care staff develop an understanding of
           the resident.

           In an effort to ensure the effectiveness of drug therapies, this facility conducts daily
           interdisciplinary reviews of all residents who have experienced a change in condition or
           medication. All department heads are required to attend. The director of nursing also
           conducts daily medication order reviews. Behavior management programs are developed
           by an in-house psychology team, to which all staff may refer a resident. This team is made
           up of a clinical nurse geriatric specialist, psychologist, and psychiatrist. The consultant
           psychiatrist is also available to assist staff on an as-needed basis.

           Staff also describe a corporate belief in specialized training. All staff receive annual
           psychotropic drug training and satellite training sessions are broadcast via the
           corporation’s “Long Term Care Network.” This training is mandatory for all staff, who
           are then tested on program content.



Psychotropic Drug Use in Nursing Homes - Case Studies   21                                OEI- 02-00-00491
Alternative Interventions

          Mission Nursing and Rehabilitation Center’s policy to avoid the use of psychotropic drugs
          is reflected in the staff’s commitment to try alternative interventions for a resident whose
          onset of behavioral symptoms begin after admission. These alternative interventions
          include: emotional support of the resident, encouragement of the resident to verbalize
          what is wrong, time out, and redirection. To manage aggressive residents, staff use
          calming techniques such as a decrease in sensory stimulation, redirection (especially if the
          resident is confused), bringing the resident into his/her room, encouraging the resident to
          verbalize what is bothering him or her, and activity therapy. If none of these methods are
          successful, the physician is called. Residents whose behavior poses a threat to self or
          others and who cannot be maintained with either pharmacologic or non-pharmacologic
          treatment, are transferred to a local psychiatric facility for evaluation and treatment.




Psychotropic Drug Use in Nursing Homes - Case Studies   22                              OEI- 02-00-00491
                    MISSION TERRACE CONVALESCENT HOSPITAL


              C         Located in Santa Barbara, California, a city in southern California

              C         For-profit individually owned nursing home

              C         138 beds (138 Medicare certified, 0 Medicaid certified) 


Facility Profile

          Mission Terrace Convalescent Hospital’s specialties include orthopedic and medical
          rehabilitation, wound care, and hospice care. According to the administrator, who owns
          this facility as well as a sister facility with assisted living, the nursing home is becoming
          “more of a rehabilitation center and less a long term setup;” she also says she “avoids a
          dementia speciality.” The director of nursing describes the resident population as having
          more family involvement and a higher socio-economic class and education level than most
          other nursing homes.

          Mission Terrace Convalescent Hospital has a moderate psychotropic drug usage rate of 33
          percent. The director of nursing says that “ although few residents have psychiatric
          diagnoses and/or dementia., many hospice patients require anti-anxiety drug therapy as
          part of end of life care. [Additionally], many transitional patients, such as the robust 65
          year old who has just undergone hip replacement, usually want a sleeping pill while they
          are here.”

Approach to Psychotropic Drug Therapy

          This nursing home has developed separate procedures for residents coming into the
          nursing home already taking a psychotropic drug and for residents whose drug therapy
          begins after admission. The MDS RN coordinator says, “for residents admitted and
          already taking a psychotropic [drug] we determine the behavior [necessitating the drug
          therapy], monitor and calculate, then work toward reduction.” She also describes the
          steps taken when a resident’s behavioral symptoms begin after admission. Firstly, the pre-
          medication behavior is identified and a medical work-up is done. Then a behavior
          management program is started. The MDS RN coordinator believes that: “perhaps as
          many as 80 percent of the time [the work-up] rules out and diverts the use of a
          psychotropic drug, especially for urinary tract infections, which can cause aberrant
          behaviors in the elderly, such as agitation, aggression, confusion, and hallucinations.”

          At Mission Terrace Convalescent Hospital, the consultant pharmacist monitors
          psychotropic drugs by reviewing the drug treatment plans and reporting to the director of
          nursing monthly. These reports are also placed in the residents’ medical record. Residents
          who take more than one psychotropic medication or who are undergoing



Psychotropic Drug Use in Nursing Homes - Case Studies   23                                 OEI- 02-00-00491
          dosage reduction are followed by a psychiatrist, while others are managed by the attending
          physician.

          The nursing staff also utilizes a behavior management program developed by the director
          of nursing. This system is color coded by behavior type and includes a daily tally of
          behavior episodes observed in the resident and any circumstances that appear to be related
          to the behavior. This account is kept in the resident’s medical record and reviewed by the
          director of nursing as part of her weekly assessments. Additional discussions about
          residents taking psychotropic drugs occur at weekly rehabilitation meetings attended by
          the administrator, medical director, department heads, and other direct care staff.

Alternative Interventions

          Mission Terrace Convalescent Hospital will generally attempt alternative interventions for
          residents with behavioral disturbances. They first rule out medical causes for the behavior
          and assess the resident for spiritual, social, dental needs, and for the presence of pain.
          Staff say they utilize one to one, redirection, emotional support, and other behavior
          management techniques. One registered nurse we interviewed, who is the staff trainer,
          says “we underestimate the impact of life altering scenarios... these patients feel very
          threatened over the loss of control. The usual response is to give [the resident] a pill.”
          The director of nursing believes: “for the resident who wanders, or is anxious and
          confused about where they are and why they are here... a loss of independence is too often
          overlooked by nursing home care-givers. We encourage all of our staff, from
          housekeepers to RNs, to offer emotional support to the patient to reduce their [residents]
          anxiety.” Similarly, a charge nurse says, “We try to find other methods, other than
          drugs.”




Psychotropic Drug Use in Nursing Homes - Case Studies   24                             OEI- 02-00-00491
                   MOUNTAIN VALLEY CARE AND REHABILITATION


           C         Located in Kellogg, Idaho, a small town in rural Northwestern Idaho

           C         For-profit nursing home

           C         68 beds (68 Medicare certified, 68 Medicaid certified)


Facility Profile

          Mountain Valley Care and Rehabilitation is one of only two nursing homes in the local
          area. Most of the residents in this nursing home are long-term, although some are short-
          term, requiring orthopedic and stroke rehabilitation. The majority of the residents are
          over 70 years old and only a very limited number are independent. This nursing home has
          a low drug usage rate of 9 percent.

Approach to Psychotropic Drug Therapy

          According to the administration, most of the residents on psychotropic medications came
          to the facility already taking the drugs. Occasionally an in-house resident may be
          prescribed a psychotropic drug, such as a resident with Alzheimer’s disease who begins to
          hallucinate. However, before medication is prescribed, the staff takes several steps. They
          assess the resident for medical problems to determine if the behavior is being caused by
          pain or another physical problem, such as a urinary tract infection. Also, staff record each
          resident’s behavior, noting the type of behavior, the time of day, and what precipitated the
          behavior. The charge nurse explains that, “We try to establish what behaviors they
          [residents] demonstrate and develop interventions before we start medications.” If none
          of these interventions work, they will consult the psychiatrist and start a medication.

          The nursing home staff reports monitoring residents taking psychotropic medications in
          several different ways. The charge nurse explains that “once [the resident is] on the
          med[ication] we do behavior monitoring sheets and continue to look for interventions.”
          The nurses also record any side effects they observe by placing ‘side effect’ stickers in the
          resident’s medical chart. Once a month, the consultant pharmacist reviews the
          medications. The psychotropic drug group, consisting of the psychiatrist, director of
          nursing, MDS RN coordinator, and social services, meets monthly to review charts and
          behavior sheets and to assess whether or not the drug is effective.

Alternative Interventions

          In an interview, the medical director told us that he is the personal physician of most of
          the residents in the facility and that he has an “aversion to these drugs.” He explained that
          he is concerned about the side effects of psychotropic drugs as well as the regulations
          surrounding their use. Instead, he advocates alternatives, such as behavior management.


Psychotropic Drug Use in Nursing Homes - Case Studies   25                               OEI- 02-00-00491
          Staff also explain that the consulting psychiatrist has made this easier with his ideas for
          alternative treatments and his experience with using the different drugs.

          The nursing home uses several non-pharmaceutical techniques to control residents’
          behavior. As described above, staff monitor and record the circumstances of residents’
          targeted behaviors. They graph these behaviors over time and record in the chart which
          interventions were successful in order to identify what precipitates the behavior and
          remove it. For example, we met one resident who had been acting out aggressively
          towards other residents until staff discovered it was because he felt territorial of the space
          in front of his door. To alleviate some of his anxiety, the staff placed a small rug in front
          of his door to remind other residents not to stand there. The nursing home also uses pet
          therapy (cats, birds, and dogs) to calm residents. In addition, they have allowed a local
          child day care center to build a playground on their grounds. Staff say the nursing home
          residents enjoy watching the children play.




Psychotropic Drug Use in Nursing Homes - Case Studies   26                                OEI- 02-00-00491
                                           PARK NURSING HOME


       C         Located in Rockaway, New York, in the borough of Queens, New York City

       C         For-profit nursing home

       C         196 beds (196 Medicare certified, 196 Medicaid certified)


Facility Profile

           Park Nursing Home has a high proportion of mentally ill residents. The age range of the
           entire resident population is from 36 to 90, with an average age between 60 and 70 years.
           Most are long term care and many have a long standing diagnosis of schizophrenia or
           advanced dementia. As soon as the inspection team entered the facility, we observed
           intense activity and noise levels, with some confused residents wandering throughout the
           facility. However, the staff used a firmly directive yet gentle approach that was non-
           threatening and non-confrontational to guide residents.

           Park Nursing Home actively seeks out residents with a history of mental illness. The
           administrator credits a contract with the New York State Mental Health Authority as
           keeping the facility competitive while also providing a much needed public service to a
           marginal population; he explains that State psychiatric institution closures have displaced
           many patients.

Approach to Psychotropic Drug Therapy

           Park Nursing Home uses a highly systemized approach for residents taking psychotropic
           drugs, starting with an automatic psychiatric consultation for all residents coming into the
           nursing home already taking psychotropic medications. Staff attempt to discontinue the
           drugs for these residents. Whether or not the resident is newly prescribed or has a history
           of taking such drugs, the drug therapy plan is developed by the psychiatrist, who
           determines a pharmacologic versus behavior modification approach, or a combination of
           the two. The director of nursing believes that only by “individualizing the resident’s plan
           of care with input from a multi-disciplinary team, can there be a successful outcome.”
           Further, the medical director conducts weekly chart reviews for those residents who have
           had a change in condition and physically examines any newly admitted resident. Beyond
           the monthly DRR, a consultant pharmacist also reviews three to eight medical records a
           week and makes necessary recommendations to the physician of record.

           Quality control for all residents taking a psychotropic drug includes a behavior monitoring
           record, weekly RN psychotropic drug notes, interdisciplinary notes evaluating the
           resident’s current behaviors and response to all interventions, and a weekly psychiatrist
           note that includes an assessment for side effects and efficacy of continued treatment.
           When a resident experiences a change in condition or behavior, an automatic


Psychotropic Drug Use in Nursing Homes - Case Studies   27                               OEI- 02-00-00491
          psychiatric consult is stimulated. Finally, all residents with a mental illness diagnosis are
          seen by the psychiatrist once a year or if not stable, every three months. Because of the
          high proportion of residents with mental illness, Park Nursing Home maintains 24 hour
          and 7 day psychiatric consultation coverage.

Alternative Interventions

          The Park Nursing Home administrator believes the first step to successful alternative
          management is to observe all new admissions into the facility on a one to one basis. They
          also use activities therapy and psychiatric therapy and an innovative redirection approach
          that places diversionary objects in common areas. For example, a dresser with its drawers
          filled with fabrics and other safe objects allows the residents the opportunity to open the
          drawers, pull out the fabric, and begin unfolding and re-folding the material.

          Continuity of care staff is also cited by all nursing home staff as integral to modifying
          residents’ behavior. The administrator describes staff retention as “extremely important to
          us; we try to accommodate [staff’s] personal needs as much as possible.” Almost all of
          the CNAs at this nursing home are long term employees who have established
          relationships with both the residents and their families. The charge nurses in the care units
          make every effort to resident assignments unchanged from day to day. The three CNAs
          we interviewed say that the change in the nursing home resident population over the last
          two years has been a difficult adjustment for them. As one stated, “These patients are a
          lot of work. As soon as you finish giving care to one, get them bathed and dressed, and
          you move on to the next, the first has already taken off his clothes and you have to start all
          over.”




Psychotropic Drug Use in Nursing Homes - Case Studies   28                                 OEI- 02-00-00491
                                                                                  APPENDIX A




                                     Comments on the Draft Report

          In this appendix, we present in full the comments from the Centers for Medicare &
          Medicaid Services.




Psychotropic Drug Use in Nursing Homes - Case Studies   29                           OEI- 02-00-00491
Psychotropic Drug Use in Nursing Homes - Case Studies   30   OEI- 02-00-00491
Psychotropic Drug Use in Nursing Homes - Case Studies   31   OEI- 02-00-00491
